          U.S. ENVIRONMENTAL PROTECTION AGENCY
          OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report



       More Action Needed to Protect 

       Public from Indoor Radon Risks 

       Report No. 08-P-0174


       June 3, 2008       

Report Contributors:	            John Bishop
                                 Tiffine Johnson-Davis
                                 Dan Howard
                                 Rick Beusse




Abbreviations

EPA          U.S. Environmental Protection Agency
GAO          Government Accountability Office
IRAA         Indoor Radon Abatement Act
OAR          Office of Air and Radiation
OGC          Office of General Counsel
OIG          Office of Inspector General
OMB          Office of Management and Budget
pCi/L        Picocuries Per Liter (of air)
RRNC         Radon-Resistant New Construction
SIRG         State Indoor Radon Grant




Cover photos:	 U.S. EPA Radon Public Service Announcements at
               http://www.epapsa.com/newradon/ and University of Wisconsin-Milwaukee,
               Mechanical Engineering Department, Radon Reduction Technology
               Laboratory at www.uwm.edu/Dept/radon/
                                                                                                              08-P-0174
                       U.S. Environmental Protection Agency                                                 June 3, 2008
                       Office of Inspector General


                       At a Glance

                                                                             Catalyst for Improving the Environment

Why We Did This Review             More Action Needed to Protect Public from
Indoor radon is the leading        Indoor Radon Risks
cause of lung cancer among
non-smokers and the second          What We Found
leading cause of lung cancer       Nearly two decades after passage of the 1988 Indoor Radon Abatement Act
in America, according to the       (IRAA), exposure to indoor radon continues to grow. Efforts to reduce exposure
U.S. Environmental Protection      through mitigation or building with radon-resistant new construction have not kept
Agency (EPA) and                   pace. Of 6.7 million new single family detached homes built nationwide between
U.S. Surgeon General. We           2001 and 2005, only about 469,000 incorporated radon-resistant features. Of
conducted this evaluation to
                                   76.1 million existing single family homes in the United States in 2005, only about
determine how EPA measures
                                   2.1 million had radon-reducing features in place.
indoor radon program results,
and whether changes at the
federal level could improve        The IRAA established the goal that indoor air should be as free of radon as
program effectiveness. We          outdoor air. Since 1988, EPA has administered a voluntary program to reduce
also identified challenges to      exposure to indoor radon by promoting awareness, testing, installation of radon
implementing changes.              mitigation systems in existing homes, and use of radon-resistant new construction
                                   techniques. Still, building codes in some areas do not require new homes to be
Background                         built with radon-resistant new construction. Much of the progress made in
                                   reducing exposure has occurred as a result of real estate transactions. In those
Radon is an odorless, tasteless,   cases, a buyer, seller, mortgage lender, and/or real estate agent requested that a
and invisible gas produced by      home be tested. Some States and localities do not require testing or the disclosure
decay of naturally occurring       of test results during real estate transactions.
uranium in soil and water.
Radon is found throughout the      The radon program is not achieving greater results for several reasons. EPA’s
United States. Indoor
                                   ability to achieve results with a voluntary program is limited. Potential loss of a
residential exposure occurs
when radon gas enters through      sale represents a disincentive for real estate agents and sellers to conduct radon
cracks in floors, walls, and       tests during real estate transactions. Added expense represents a disincentive for
construction joints, or gaps in    builders to use radon-resistant new construction. Opportunities exist within the
foundations around pipes,          federal community to substantially increase the number of homes tested and
wires, and pumps. According        mitigated for radon. EPA has not decided how to use all the authorities or tools
to EPA, more than 20,000           available to it to achieve the Act’s goals. Also, EPA has not been reporting
Americans die from radon-          program results in relation to homes at risk in its performance reporting.
related lung cancer every year.
                                    What We Recommend

For further information,           We recommended that EPA develop a strategy for achieving the long-term goal of
contact our Office of              the IRAA that considered using the authorities authorized by Congress or explain
Congressional and Public           its alternative strategy, which it agreed to do. We also recommended that EPA
Liaison at (202) 566-2391.         identify limitations to meeting the goal to Congress. EPA responded that it does
                                   not believe the IRAA goal is achievable. While EPA agrees that the problem of
To view the full report,
click on the following link:       radon exposure gets worse each year, it did not agree to notify Congress that the
www.epa.gov/oig/reports/2008/      goal set by the statute is unachievable. We consider this issue open and
20080603-08-P-0174.pdf             unresolved. We also recommended improvements to how EPA measures and
                                   reports program results, which it agreed to do.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                           June 3, 2008

MEMORANDUM

SUBJECT:               More Action Needed to Protect Public from Indoor Radon Risks
                       Report No. 08-P-0174


FROM:                  Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:                    Robert J. Meyers
                       Principal Deputy Assistant Administrator for Air and Radiation


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $629,228.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0827
or najjum.wade@epa.gov; or Rick Beusse, Director for Program Evaluation, Air & Research
Issues, at (919) 541-5747 or beusse.rick@epa.gov.
More Action Needed to Protect                                                                                               08-P-0174
Public from Indoor Radon Risks




                                  Table of Contents 


Chapters
   1	   Introduction ...........................................................................................................      1


                Purpose ..........................................................................................................    1
                Background ....................................................................................................       1
                Noteworthy Achievements..............................................................................                 6
                Scope and Methodology.................................................................................                7


   2	   Risk of Exposure to Indoor Radon Grows Substantially

        Despite EPA’s Efforts ...........................................................................................             8


                Problem of Exposure to Indoor Radon Grows Larger Each Year...................                                         8

                Inconsistencies and Lack of Incentives Limit EPA’s Ability to 

                    Achieve Greater Results .........................................................................                11 

                Resources Limited for Achieving Indoor Radon Program Goals ....................                                      14 

                Opportunities Exist for Federal Community to Increase
                    Radon Testing and Mitigations ................................................................                   15 

                Existing Statutory Authority Could Be Used to Achieve Radon Goals ...........                                        17 

                Conclusions ...................................................................................................      17
                Recommendations .........................................................................................            17
                Agency Comments and OIG Evaluation ........................................................                          18 


   Status of Recommendations and Potential Monetary Benefits.................................                                        20     




Appendices
   A    EPA’s Map of Radon Zones..................................................................................                   21     


   B    EPA Radon Program Goals and Progress Toward Achieving Goals ...............                                                  23     


   C    Details on Scope and Methodology.....................................................................                        24     


   D    Summary of Homes at Risk and with Radon Reduction Features ...................                                               27     


   E    Agency Response to Draft Report ......................................................................                       29     


   F    OIG Evaluation of Agency Response .................................................................                          36     


   G    Distribution ...........................................................................................................     39     

                                                                                   08-P-0174 





                                Chapter 1
                                 Introduction

Purpose
          This project was initially proposed by the U.S. Environmental Protection
          Agency’s (EPA’s) then Acting Assistant Administrator for the Office of Air and
          Radiation and the EPA Region 2 Regional Administrator. The Acting Assistant
          Administrator requested assistance from the Office of Inspector General (OIG) on
          how best to communicate indoor radon health risks to the public. He also asked
          how to measure program results, and that we identify what additional measures, if
          any, could be taken within EPA’s limited budget to reduce indoor radon health
          risks. In response to the request, we conducted this evaluation to:

             •	 Determine how EPA measures overall Indoor Radon Program results and
                the results achieved at the regional and State levels with State Indoor
                Radon Grant funds.

             •	 Identify potential changes and improvements to the Indoor Radon
                Program at the federal level to improve the effectiveness and efficiency of
                the program in meeting its short- and long-term goals, as well as identify
                the challenges or obstacles to employing these potential program changes.

Background
          EPA, the National Academy of Sciences, and the U.S. Surgeon General have
          stated that indoor radon is the second leading cause of lung cancer in America,
          after smoking. Indoor radon is also the number one cause of lung cancer among
          non-smokers, according to EPA estimates. In 2005, the Surgeon General warned
          the American public about the risks of breathing indoor radon by issuing a
          national health advisory.

          Radon is an odorless, tasteless, and invisible gas produced by the decay of
          naturally occurring uranium present in soil, rock, and water throughout the United
          States. Because radon, a carcinogen, can collect in the air in homes, it is the
          public’s greatest exposure to naturally occurring radiation. Radon gas can seep
          into buildings through cracks in floors, walls, and construction joints, or gaps in
          foundations around pipes, wires, and pumps. Figure 1-1 shows the many paths
          through which radon gas enters homes.




                                           1

                                                                                                     08-P-0174 



                 Figure 1-1: Radon Can Enter Home via Many Paths




                 Source: U.S. Geological Survey

                 According to EPA, the concentration of radon measured in a house depends on
                 many factors, including the design of the house, local geology and soil conditions,
                 and the weather. When radon decay occurs in air, the decay products can cling to
                 aerosols and dust, and can then be inhaled into the lungs.

                 Indoor Radon Exposure Poses Significant Risks to Human Health

                 EPA estimates that about 20,000 lung cancer deaths each year in the United States
                 are related to indoor exposure to radon. A 1999 report by the National Academy
                 of Science estimated about 15,000 to 22,000 Americans die every year from
                 radon-related lung cancer.1 This represents from 10 to 14 percent of all persons
                 each year who die from lung cancer in the United States.

                 Although outdoor concentrations of radon are typically low, averaging about
                 0.4 picocuries per liter (pCi/L) of air (0.16 to 0.57 pCi/L2), it can seep into
                 structures and build up to much higher concentrations indoors. As shown in




1
  Health Effects of Exposure to Radon: Biological Effects of Ionizing Radiation VI, Committee on Health Risks of
Exposure to Radon, Board on Radiation Effects, Research Commission on Life Sciences, National Research
Council, National Academy Press, Washington, DC. 1999.
2
  National Ambient Radon Study, Hopper RD, Levy RA, Rankin RC, Boyd MA. 1991. Proceedings of the 1991 EPA
International Symposium on Radon and Radon Reduction Technology; Las Vegas, NV; EPA-600/4–9 (pp. 9–79).

                                                       2

                                                                                                         08-P-0174


                 Table 1-1 and Appendix A, EPA categorizes U.S. counties into one of three zones
                 based on the predicted average indoor radon level3 in the area.
                 Table 1-1: Three Categories of Radon Zones and EPA’s Estimate of Risk
                                         Predicted Average
                      Category          Indoor Radon Level              Health Risk Potential
                       Zone 1              >4.0 pCi/L                          Highest
                       Zone 2              2.0 to 4.0 pCi/L                   Moderate
                       Zone 3              < 2.0 pCi/L                          Low
                 Source: EPA’s Radon Website.

                 Regardless of the radon zone in which a house is located, EPA emphasizes that
                 high radon levels have been found in homes in every zone in the United States.
                 EPA and the Surgeon General recommend testing all homes below the third floor
                 for radon. According to EPA, the average indoor radon concentration is about
                 1.3 pCi/L of air. However, it is not uncommon for indoor radon levels to be
                 found in the range of 5 to 50 pCi/L. Indoor radon levels have been found as high
                 as 2,000 pCi/L.

                 EPA Administers Voluntary Program to Address Indoor Radon

                 EPA’s Indoor Environments
                                                         Figure 1-2: Typical Radon Mitigation System
                 Division, within the Office of
                 Air and Radiation,
                 administers a voluntary
                 Indoor Radon Program. The
                 program promotes radon
                 awareness, testing, use of
                 radon-resistant new
                 construction (RRNC)
                 techniques, and installation
                 of radon mitigation systems
                 in existing homes. The
                 program promotes mitigation
                 systems when indoor radon
                 levels are above EPA’s
                 recommended action level of
                 4.0 pCi/L of air. According
                 to EPA, the 4.0 pCi/L action
                 level is not the maximum
                 safe level for radon in the
                 home, since any exposure to
                 radon poses some risk.                  Source: EPA


3
 EPA uses five factors to determine radon potential: indoor radon measurements, geology, aerial radioactivity, soil
permeability, and foundation type. These are discussed further in Appendix A.

                                                         3

                                                                                                         08-P-0174


                  Instead, 4.0 pCi/L of air was a decision based on EPA’s assessment of technology
                  and cost.4 Figure 1-2 shows a typical mitigation system.

                  Generally, a radon mitigation system involves creating a negative field of pressure
                  below the lowest level of the house (slab or crawl space) to prevent the entry of
                  radon gas. A pipe is usually used to channel the air flow from under the house to
                  a safe discharging point above the roofline. A special exhaust fan (radon
                  mitigation fan) is connected to the pipe and used to continuously remove gas from
                  below the house. According to EPA, today's technology can reduce the levels in
                  most homes to 2.0 pCi/L or below. Pre-construction soil testing for radon is not
                  sufficient for determining whether a house should be built radon-resistant.
                  Although radon can be measured in soil, soil testing cannot accurately predict
                  radon levels in the finished home because it cannot predict the impact site
                  preparation will have on introducing new radon pathways or the extent to which a
                  vacuum will be produced by the house.

                  Testing for indoor radon is largely driven by real estate transactions. EPA’s focus
                  on real estate transactions aims to raise the likelihood that the buyer, seller,
                  mortgage lender, and/or real estate agent is aware of indoor radon risks and
                  requests that the home be tested during a sale. EPA also encourages home
                  builders to build new homes with RRNC, as this approach is more cost effective
                  than mitigating an existing home. According to EPA, the cost to install a radon
                  mitigation system in an existing home is relatively inexpensive, and the cost to
                  install radon-resistant features during home construction is even less. However,
                  EPA no longer provides quantitative estimates of costs to mitigate indoor radon.

                  Authority and Goal of the 1988 Indoor Radon Abatement Act

                  The authority for EPA’s indoor radon activities comes from the 1988 Indoor
                  Radon Abatement Act (IRAA). Although there is no safe level of exposure to
                  radon gas, the goal established by Congress in the 1988 IRAA is clear:

                         The national long-term goal of the United States with respect to radon
                         levels in buildings is that the air within buildings in the United States
                         should be as free of radon as the ambient air outside of buildings.5




4
  According to EPA’s 1992 Technical Support Document for the 1992 Citizen’s Guide for Radon, EPA arrived at
the level of 4.0 pCi/l by balancing the findings of its technical analysis on risk, testing accuracy, mitigation
technology, and cost effectiveness with information it collected from its risk communication outreach. The
Technical Support Document stated that lower action levels would introduce more testing uncertainty and that
elevated levels of radon can be reduced to 4.0 pCi/l 95 percent of the time. At that time EPA estimated that a level
of 2.0 pCi/l could be achieved about 70 percent of the time.
5
  Section 301 of the Toxic Substances Control Act, amended in 1988 to add Title III, Indoor Radon Abatement Act,
15 U.S. Code 2661.

                                                         4

                                                                                          08-P-0174 



                   The IRAA authorizes EPA to:

                       •	 Issue such regulations as may be necessary to carry out IRAA provisions;
                       •	 Administer grants to help States establish radon programs, conduct radon
                          surveys, develop public information on radon, and conduct demonstration
                          and mitigation projects;
                       •	 Report on studies of radon in federally-owned buildings;
                       •	 Conduct a study of the extent of radon contamination in the Nation's
                          school buildings and report on the results of this study;
                       •	 Create a Citizens Guide to radon;
                       •	 Develop model construction standards and techniques;
                       •	 Establish regional radon training centers;
                       •	 Provide technical assistance to States; and
                       •	 Establish proficiency programs for firms offering radon-related services.

                   EPA’s Indoor Radon Program Goals and Estimated Lives Saved

                   EPA’s Indoor Radon Program promotes voluntary actions at the State, local, and
                   tribal levels in an effort to achieve two goals:

                       •	 Increase the number of homes built with RRNC.
                       •	 Increase the number of homes mitigated for indoor radon.

                   EPA estimated that in 2005 nearly 194,000 additional homes6 included radon
                   reducing features (i.e., were either constructed with RRNC or mitigated for
                   radon). EPA’s goal, as reported to the Office of Management and Budget, is to
                   increase the number of additional homes with radon-reducing features to 380,000
                   per year in 2012. EPA plans to accomplish this by providing radon information,
                   promoting testing, increasing awareness, and giving to States technical and
                   financial assistance. The Director of the EPA Center for Radon and Air Toxics
                   (within the Indoor Environments Division) called the 2012 goal “very
                   aggressive,” as it represents a tripling of the current number of mitigations and
                   doubling current levels of new homes built with RRNC. EPA estimated, based on
                   risk assessments, that:

                       •	 The estimated number of homes with radon-reducing features increased
                          from 153,598 during 2000 to 193,996 during 2005.
                       •	 The estimated number of lives saved from additional homes having radon-
                          reducing features increased from 369 during 2000 to 577 during 2005.
                       •	 The projected number of lives saved from additional homes having
                          radon-reducing features will increase from 645 during 2006 to 1,250
                          during 2012.



6
    Data provided by EPA only included single family detached homes.

                                                        5

                                                                                                         08-P-0174 



                  Appendix B provides additional details on those statistics, while Chapter 2
                  discusses EPA’s goals further.

                  EPA Grants Help Address Indoor Radon Risks

                  Through its State Indoor Radon Grant (SIRG) program, EPA provides annual
                  grants to States and tribes for indoor radon risk reduction programs. Since 2000,
                  EPA has provided about $62.4 million in such grants via EPA regional offices to
                  address indoor radon. States and tribes are required to provide a minimum of
                  40 percent matching funds to receive SIRG funds.7 States and tribes may use
                  SIRG allocations for a variety of purposes, including to:

                      •	 Educate consumers, real estate professionals, home inspectors, builders,
                         State and local building code officials, and others;
                      •	 Persuade home builders to include RRNC in new homes;
                      •	 Encourage local code officials to adopt radon-resistant building codes; and
                      •	 Promote testing and mitigation in residential real estate transfers.

                  In addition, EPA publishes several radon guides for home buyers and sellers,
                  tenants, schools, physicians, home builders, and radon service providers (someone
                  who tests and/or mitigates homes for indoor radon gas).

Noteworthy Achievements
                  In 2001, the National Academy of Television, Arts, and Sciences selected one of
                  EPA’s television public service announcements for a national Emmy Award. The
                  Academy recognized this public service announcement, known as "Take the
                  National Radon Test: Man on the Street," for its efforts to raise awareness of the
                  health effects of radon on the individual and family. The Indoor Radon Program
                  launched a new series of television, radio, and print public service announcements
                  in 2006 and 2007, encouraging people to test and fix their homes for radon. The
                  Agency distributed these radon public service announcements to thousands of
                  television stations, radio stations, and print media outlets across the country,
                  including over 100 real estate trade magazines.

                  During the course of this evaluation, EPA finalized its State Measures Checklist.
                  The checklist informs State programs of key performance measures, such as
                  estimated number of homes mitigated and estimated number of homes built with
                  RRNC. EPA encourages States to: (1) align their SIRG program activities with
                  the Agency's strategic goals; and (2) demonstrate and report results. EPA also
                  developed a required reporting template and guidance for States to use for Fiscal
                  Year 2007. Data collected through the template could assist the Agency in


7
 The statutory match was 50 percent for States participating in the third year and beyond. In an effort to encourage
greater State participation, the matching requirement was reduced to 40 percent in the 2006 EPA appropriation.

                                                         6

                                                                                  08-P-0174


         rewarding better performing State programs with a greater share of SIRG funds in
         the future.

Scope and Methodology
         We conducted our field work from February through December 2007. We
         conducted this performance evaluation in accordance with generally accepted
         government auditing standards. Those standards require that we plan and perform
         the evaluation to obtain sufficient, appropriate evidence to provide a reasonable
         basis for our findings and conclusions based on our evaluation objectives. We
         believe that the evidence obtained provides a reasonable basis for our findings and
         conclusions based on our evaluation objectives. Appendix C describes our scope
         and methodology in more detail, including information on prior reports, data
         limitations, and management control review.




                                          7

                                                                                  08-P-0174 





                                Chapter 2
           Risk of Exposure to Indoor Radon
        Grows Substantially Despite EPA’s Efforts

         After nearly two decades of effort, potential exposure to indoor radon continues to
         grow. As more homes have been built, efforts to reduce exposure through
         mitigation or building with RRNC have not kept pace. Of an estimated
         6.7 million new single family detached homes built nationwide between 2001 and
         2005, only about 469,000 incorporated radon-resistant features, or about
         7 percent. Inconsistencies in radon requirements among State and local
         governments and a lack of incentives for key stakeholders to take voluntary actions
         limit EPA’s ability to achieve greater results. Federal agencies have opportunities
         to reduce radon risks at housing they finance, underwrite, control, or own.
         Further, EPA has not exercised all the authorities granted to it by the 1988 IRAA.
         Due to insufficient progress, each year EPA falls further behind in achieving the
         IRAA long-term goal that indoor radon levels be no higher than outdoor levels.

Problem of Exposure to Indoor Radon Grows Larger Each Year
         As shown in Figures 2-2 and 2-3 below, the problem of indoor radon exposure
         increased each year from 2001 to 2005. The number of RRNC actions and
         mitigations did not keep pace with the number of new homes built nationwide.
         The Agency’s 2006 Performance and Accountability Report stated that:

               Since the mid-1980s, there has been significant progress in reducing
               the risk from exposure to radon in homes.

         However, it is difficult to substantiate this claim because the radon performance
         data in the Fiscal Year 2006 Performance and Accountability Report were
         reported without a meaningful baseline for comparison. Instead, as indicated in
         Figure 2-1, the results in this annual report were reported as the absolute number
         of new homes built with RRNC and existing homes that were mitigated for radon.
         These results were reported without any mention of the relationship of these
         numbers to the magnitude of the problem (i.e., the numbers of homes at risk).




                                          8

                                                                                                       08-P-0174 



                 Figure 2-1: Excerpt from Performance and Accountability Report




                 Source: EPA’s Fiscal Year 2006 Performance and Accountability Report

                 Of an estimated 6.7 million new single family detached homes built nationwide
                 between 2001 and 2005, only about 469,000 incorporated radon-resistant features,
                 or about 7 percent.8 As shown in Figure 2-2, the number of homes built with
                 RRNC compared to all homes at risk shows that the potential for indoor radon
                 problems continues to grow each year.

                 Figure 2-2: Total New Homes Built Nationwide Compared to Number of New Homes
                 Built Nationwide with RRNC Features, 2001 to 2005


                                 Thousands
                                       2000
                                       1800
                                       1600
                                       1400
                                       1200
                      Total New Hom es
                                       1000                                                    Total New Homes
                            in U.S.
                                        800                                                    Built in U.S.
                                        600                                                    New Homes Built in
                                        400                                                    U.S. w ith RRNC
                                        200
                                         0
                                              2001    2002    2003     2004     2005
                                                              Year




                  a
                    In 2004, EPA began to exclude “Rough-in for Sub-Slab Ventilation” from qualifying as a radon-
                  reducing system. This explains the drop in RRNC between 2003 and 2004.
                  Source: OIG analysis of National Association of Home Builders data for total new housing starts
                  and estimated total homes built with RRNC information provided by EPA’s Indoor Radon Team
                  (see Appendix D, Table D-1 for data).



8
 Based on OIG analysis of National Association of Home Builders data for housing starts and estimated total homes
built with RRNC information provided by EPA’s Indoor Radon Team.

                                                        9

                                                                                                      08-P-0174


                      Of more than 1.5 million new single family detached homes built in high radon-
                      potential Zone 1 areas between 2001 and 2005, less than 282,000 (or
                      18.4 percent) incorporated radon-resistant features. Nationwide, after 17 years,
                      only about 2.1 million of 76.1 million single family homes in the United States
                      (2.8 percent) had radon-reducing features in place as of 2005. EPA estimates that
                      about 5.1 million homes (6.7 percent) have indoor radon levels above EPA’s
                      recommended action level of 4.0 pCi/L. The other 71 million homes are not
                      necessarily safe – they are just estimated to be below the 4.0 pCi/L level.9 As
                      shown in Figure 2-3, the number of existing homes that have undertaken actions
                      to mitigate indoor radon gas is also significantly less than the total number of
                      homes.

                       Figure 2-3: Number of Single Family Homes and Number with
                       Radon-Reduction Features (RRF), 2000 to 2005



                                           80

                                           70
                                           60

                        Millions of U.S.   50                                       Number of U.S. Homes
                        Single Family                                               Nationwide
                                           40
                             Homes
                                           30
                                                                                    Number of U.S. Homes
                                                                                    with RRF Nationwide
                                           20
                                           10
                                           0
                                                2000 2001 2002 2003 2004 2005
                                                            Year




                       Source: OIG analysis of U.S. Census Bureau data on homes and gross annual radon fan
                       sales data supplied by fan manufacturers to EPA’s Indoor Radon Team.


                      Appendix D provides details on the number of new homes built with RRNC
                      features nationwide, the number in Zone 1 areas, the number of existing homes at
                      risk, and the number with radon-reducing features.

                      The Executive Director of the American Association of Radon Scientists and
                      Technologists told us that the rate of radon mitigation and testing is so slow that
                      the efforts are not even keeping up with new construction rates. He pointed out
                      that the nation is building more homes in radon problem areas at a faster pace
                      than testing and mitigations are taking place in existing homes. Therefore, an


9
    See Footnote 4.

                                                            10
                                                                                                         08-P-0174


                  even larger radon exposure problem is being created in the country over time,
                  not a lesser problem.

                  Concerns that the Agency’s voluntary strategy could not achieve the long-term
                  IRAA goals had been identified previously. A 1997 EPA OIG report10 on
                  voluntary programs concluded that voluntary programs can be an effective tool,
                  but they rely heavily on outside organizations in reducing risks. Consequently,
                  voluntary programs must use good management practices, including educating
                  people about incentives, providing quality support, obtaining commitments, and
                  evaluating progress and making adjustments. Still, the report noted good
                  management practices do not guarantee success. Data for 2000 to 2005 show that
                  only limited results have been achieved in reducing radon risks with EPA’s
                  voluntary program. Also, a 1992 U.S. Government Accountability Office report11
                  stated:

                         Because of the influence federal housing agencies and federally
                         chartered secondary mortgage institutions have on the housing
                         industry, requiring them to address radon could stimulate radon
                         testing for the nation’s homes.

Inconsistencies and Lack of Incentives Limit EPA’s Ability to
Achieve Greater Results
                  Since the 1988 IRAA, EPA has administered a voluntary program to reduce
                  exposure to indoor radon by promoting awareness, testing, installation of radon
                  mitigation systems in existing homes, and use of RRNC techniques in new homes.
                  However, inconsistencies in radon-related requirements among State and local
                  governments, a lack of incentives, and misuse of the radon map limit EPA’s
                  ability to achieve greater results with a voluntary program. Details follow.

                  Adoption of Radon Codes and Regulations Inconsistent

                  EPA has partnered with some federal and State governmental and non-
                  governmental agencies to promote radon-resistant construction of new homes and
                  encourage radon testing when existing homes are sold. However, codes and
                  regulations for indoor radon vary widely between locations. Some States and
                  localities have not adopted radon building codes,12 while others have done so.
                  These codes include disclosure of indoor radon test results during real estate
                  transactions, the required use of RRNC in homes built in certain areas, and/or



10
   Risk Reduction Through Voluntary Programs, EPA OIG Rpt. No. 7100130, April 21, 1997. 

11
   Actions to Promote Radon Testing, GAO/RCED-93-20, December 1992. 

12
   Because EPA does not maintain current data of areas where builders are required to use RRNC or which States 

require radon service providers to be certified, we were unable to quantify the number of States that require such

measures. 


                                                         11

                                                                                                         08-P-0174


                 certification requirements for radon service providers. Some States only require
                 that radon be listed along with a list of other potential environmental hazards.

                 Although we did not contact State and local agencies, we discussed State and
                 local radon codes and requirements with the radon staffs of 4 of EPA’s 10
                 regional offices (Regions 2, 4, 7, and 9). Region input confirmed that radon
                 disclosure policies for real estate transactions vary widely between areas. For
                 example, some areas require that the test results be disclosed if a radon test has
                 been performed, while in other areas radon disclosure is voluntary.

                 Lack of Incentives for Key Stakeholders to Voluntarily Adopt
                 Indoor Radon Policies and Practices

                 EPA relies on voluntary actions by key stakeholders such as real estate agents,
                 home buyers and sellers, home builders, and home inspectors, to reduce the
                 public’s exposure to indoor radon.13 However, there are disincentives for key
                 stakeholders. According to EPA, much of the progress made over the past
                 15 years can be attributed to EPA’s collaboration and partnerships with States,
                 the radon business community (radon industry, training centers), and other
                 non-governmental entities. Nonetheless, more can be done.

                          Real Estate Agents and Sellers
                          According to the Associate General Counsel of the National Association
                          of Realtors,14 testing for radon and/or disclosing test results during a real
                          estate transaction adds an additional layer to an already taxing house
                          buying process. This has created a disincentive for real estate agents and
                          sellers to bring up radon issues during a sale. The representative said
                          radon is not a high priority in many real estate transactions, and adding
                          another step to the transaction process could be "a negative." Instead, he
                          stated that the Association’s position is that radon is a public health issue
                          that individuals should be concerned about irrespective of an impending
                          real estate transaction. He noted that in areas where radon is known to be
                          a problem, it may be beneficial for a seller to obtain a test in advance of
                          putting the home on the market so that results are known to buyers.

                          Radon testing by the seller, while not commonly undertaken, can also be
                          problematic. Due to an inherent potential conflict of interest, sellers may
                          have little motivation to obtain accurate results or follow the appropriate



13
   According to EPA, the bulk (85%+) of the testing/mitigation activity is real estate driven (buying, selling, and
relocation primarily). However, some limited amount of “do-it-yourself” testing is done by sellers who test their
homes in preparing to sell, and by homeowners/renters concerned about their family's health.
14
   “Realtor” is a trademarked term describing a member of the National Association of Realtors, which claims over
one million members. The generic term for a member of the profession is generally a real estate agent or
professional.

                                                         12

                                                                   08-P-0174 



radon testing protocols. The testing process itself takes time and can
create a potential snag in negotiations.
Home Builders
While EPA has indicated the cost to build a new home radon resistant is
relatively low, home builders have a financial incentive to keep building
costs as low as possible. The Director of the Market Research Division
for the National Association of Home Builders told us that there are many
hazards in the home, not all of which could be affordably addressed by
builders. He told us home builders prefer an approach outlining
prescribed techniques that would allow them to satisfy due diligence in
constructing a home. He further stated there may be situations where
builders might not be able to get the indoor air quality below the EPA-
recommended action level.

The International Residential Code – the building code used to guide
home construction at the State or local level in 45 States and the District of
Columbia – does not require RRNC as a standard part of the code. RRNC
techniques are only included in the International Residential Code’s
appendix and are optional.

Home Inspectors and Radon Service Providers

Home inspectors and radon service providers who test and mitigate homes
could have a financial incentive to perform services. However, we were
told by two leading home inspection trade organizations that it is often
difficult to make a profit from these services, due to several factors:
   •	 The radon tester must, at a minimum, coordinate two trips to a
      home site – to set up and later retrieve a test kit. Accurate test
      results also rely upon the test materials remaining undisturbed for
      the duration of the test. For example, windows cannot be opened
      and doors must be kept closed (except for normal entry and exit).
      Keeping test materials undisturbed is a condition frequently
      violated. Multiple visits are sometimes needed because the testing
      process must be repeated. Repeat tests are sometimes conducted at
      the expense of the radon service provider.

   •	 Lack of certification requirements within a State can undermine
      the profitability of legitimate, certified radon service providers.
      Unqualified and/or untrained providers can operate at lower costs,
      and increase the risk of inaccurate testing or mitigation systems
      that do not work. Home inspectors said improperly installed and
      working mitigation systems were not uncommon. Also, according
      to the American Association of Radon Scientists and
      Technologists, the cost often quoted in radon publications for

                          13

                                                                                   08-P-0174


                       testing and mitigating homes may understate the true cost. As
                       such, it is difficult for some radon service providers to recover
                       their actual costs for proper radon testing and mitigation.

                    •	 Obtaining and maintaining professional certification(s) to perform
                       radon-related services can be relatively expensive. Radon testers
                       and service providers can incur hundreds of dollars in initial and
                       annual expenses for certification courses and exams, required
                       continuing education classes, and organizational membership fees.

                Properly conducted, radon testing takes hours of work. Yet, as the
                program is currently implemented, it is not economically viable for
                legitimate radon service providers in some cases. Thus, there are
                disincentives for home inspectors to offer radon services.

         Radon Zone Map Sometimes Misused

         Another factor contributing to difficulty in achieving the long-term radon goal is
         misuse of EPA’s radon zone map. This map (see Appendix A), created in 1993,
         classifies areas of the United States into three radon-potential zones. EPA
         intended the map to be used by State and local agencies and national
         organizations to target their resources in higher radon-potential zones and to
         implement radon-resistant building codes where they were most needed.
         However, EPA has consistently recommended that all homes be tested for radon
         because this is the only way to know whether radon is at an elevated level. EPA’s
         radon Website warns that the map was not intended to determine if a home in a
         given zone should be tested, and homes with elevated levels of radon have been
         found in all three zones. However, regional representatives and the Executive
         Director of the American Association of Radon Scientists and Technologists
         (which represents radon service providers), said the map is often used as a “risk”
         map to determine whether certain homes should be tested and/or built with
         RRNC. According to EPA, being in a “high risk” zone is only one of several
         factors used to determine allocation of SIRG funds to individual States.

Resources Limited for Achieving Indoor Radon Program Goals

         EPA Headquarters and regional representatives told us they would like to do more
         in terms of radon outreach, education, and other key program activities, but
         resource constraints have prevented them from doing more. EPA’s Indoor
         Environments Division Director said the States’ primary source of funding for the
         radon program is SIRG money. This money is allocated to the regional offices
         for distribution to States and tribes. Authorized annual appropriations have been
         $10 million; however, actual appropriations have been less. Table 2-1 shows the
         funding for the SIRG program from Fiscal Years 2000 to 2007. In addition to
         SIRG funds, EPA Headquarters had about $1 million in 2006 for discretionary
         money that it used to conduct outreach and media campaigns.

                                         14

                                                                                                      08-P-0174



                 Table 2-1: Annual Funding for SIRG Grants
                   Fiscal Year     EPA Funding for SIRG Grants
                      2000                  $ 8,158,000
                      2001                    8,139,900
                      2002                    8,139,900
                      2003                    8,087,000
                      2004                    8,101,900
                      2005                    6,944,100
                      2006                    7,439,000
                      2007                    7,439,000
                  Source: EPA Office of Radiation and Indoor Air


                 In 2007, EPA asked States and tribes to estimate the amount of additional
                 resources they believed they could reasonably use while also meeting the required
                 40-percent matching funds. The 47 States and 7 tribes that responded told EPA
                 they could use about $15.6 million more in SIRG funds.15 This is more than
                 double the $7.4 million in SIRG funds EPA allocated in Fiscal Year 2007. As
                 discussed in the “Noteworthy Achievements” section in Chapter 1 of this report,
                 EPA in 2007 created a required reporting template for States to use in reporting
                 what they achieved with their radon grant funds. Data collected through this
                 template could assist the Agency in rewarding better-performing State programs
                 with a greater share of SIRG funds in the future.

                 EPA has six to seven full-time equivalent positions dedicated to indoor radon at
                 the Headquarters level. EPA regional representatives we contacted said regional
                 radon programs are typically administered by one to three staff, with most staff
                 sharing time between radon and other indoor air issues (such as asthma or
                 environmental tobacco smoke).

Opportunities Exist for Federal Community to Increase
Radon Testing and Mitigations
                 Opportunities exist within the federal community to substantially reduce public
                 health risk by having homes tested and mitigated for radon. Housing financed,
                 underwritten, controlled, or owned by federal departments and agencies represent
                 a significant number of homes that could be tested, mitigated, or built radon
                 resistant. Examples of such federal organizations include the Department of
                 Housing and Urban Development, Department of Defense, Department of



15
  EPA called this informal exercise the "Blue Sky" exercise; the estimate was based on Fiscal Year 2007 program
investment and presumption of the current 60/40 match requirement (60 percent Federal, 40 percent States/tribes).
EPA does not know whether all estimates were approved by management; however, the estimates were provided by
individuals most familiar with their State program’s capability/capacity, according to the Indoor Radon Team.

                                                       15

                                                                           08-P-0174


Veterans Affairs, and Department of Agriculture. (We did not solicit input from
these organizations for our report).

Government-sponsored enterprises such as the Federal Home Loan Bank System,
Federal Home Loan Mortgage Corporation (also known as Freddie Mac), and
Federal National Mortgage Association (also known as Fannie Mae) represent the
largest source of housing finance in the United States. The construction of new
homes financed or underwritten by these and other federal departments and
agencies present a substantial opportunity to increase the number of homes built
with RRNC or mitigated for radon. In January 2005, the Federal Environmental
Executive in the Office of the Federal Environmental Executive (a White House-
based office) stated that:

      Based on national averages, we can expect that many of the homes
      owned or financed by federal government programs would have
      potentially elevated radon levels. The federal government has an
      opportunity to lead by example on this public health risk. We can
      accomplish this by using the outreach and awareness avenues we
      have, such as EPA's Web site, to share information and encourage
      action on radon to reduce risks.

According to EPA’s Indoor Environments Division Director, EPA has worked
over the years with other federal agencies to promote radon reduction policy as
part of their residential real estate portfolios. Although several agencies have
acted in one way or another to address radon, more could be done to
institutionalize policies to increase radon awareness, testing, and mitigation by the
general public, according to EPA. For internal purposes, EPA staff in 2004
prepared a conceptual document listing several possible actions the federal
community might take to increase action on radon in federal housing programs.
For any housing financially underwritten by the federal government, the staff-
identified actions included:

   •	 Providing radon information to home mortgage applicants at the time of
      application;
   •	 Ensuring subsidized homes are built with RRNC; and
   •	 Ensuring that existing homes are tested for radon and, if appropriate,
      mitigated.

According to EPA, implementing these actions might involve such complex
undertakings as executive orders, Office of Management and Budget (OMB)
bulletins, or even regulations.

EPA chose to focus its radon program on working with States, industry, and
non-governmental organizations to take actions voluntarily, rather than with other
federal agencies, on more complex undertakings. EPA has continued to promote
radon awareness and action among members of the federal community through

                                 16

                                                                                     08-P-0174


          such venues as the Federal Interagency Committee on Indoor Air Quality, the
          Office of the Federal Environmental Executive, and interagency working groups
          and forums devoted to healthy homes and green buildings.

Existing Statutory Authority Could Be Used to Achieve Radon Goals
          Although the 1988 IRAA does not require EPA to issue regulations to address
          indoor radon, it does not prohibit EPA from doing so either. Congress authorized
          the EPA Administrator in Section 310 “to issue such regulations as may be
          necessary to carry out” the provisions of the IRAA. To date, 19 years after the
          IRAA was enacted, EPA has not proposed any indoor radon regulations.

          In the nearly two decades since passage of the IRAA, exposure to indoor radon
          has grown annually. Homes continue to be built in high radon-potential areas
          without installation of radon reducing features. According to EPA, there are
          technical and policy limitations on the ability to attain levels of 0.4 pCi/L for
          indoor air (the average level for outdoor air) at an affordable cost. Nonetheless,
          EPA needs to consider using the full extent of the authorities authorized by
          Congress to achieve the goal specified in the IRAA or explain its alternatives.
          Agency officials noted the scope and limits of this authority have never been
          tested.

Conclusions

          As currently designed and implemented, EPA’s voluntary indoor radon program
          has not achieved the goals envisioned in the IRAA. In fact, the number of
          homeowners potentially exposed to excessive radon has increased each year.
          Multiple factors contributed to the limited progress made, including disincentives
          for real estate agents, home inspectors, and home sellers to conduct radon tests
          during real estate transactions. Disincentives also exist for builders to voluntarily
          build homes using radon-resistant techniques. Given the Agency’s limited
          progress from its voluntary approach for the past 19 years, it is time for the
          Agency to consider other means to achieve the 1988 IRAA goal. EPA should
          assess how it can use the authorities granted in the law to achieve long-term
          IRAA goals or identify alternatives for achieving the desired results.

Recommendations

          We recommend that the Principal Deputy Assistant Administrator for Air and
          Radiation:

              2-1	   Develop a strategy for achieving the long-term goal of the IRAA by
                     considering using the authorities authorized by Congress under Section
                     310 of that Act, or explain its alternative strategy.



                                           17

                                                                                    08-P-0174 



            2-2     Identify limitations in the authorities authorized by Congress, as well
                    as other limitations that would preclude achieving the long-term IRAA
                    goal, and report these limitations to Congress as appropriate.

            2-3     Revise the Agency’s performance measuring data to include metrics
                    that will better measure the magnitude of the potential radon problem
                    in relation to the number of homes at risk.

            2-4     Revise how the Agency reports the Indoor Radon Program results in
                    EPA’s Annual Performance and Accountability Report.

Agency Comments and OIG Evaluation

         The Agency agreed with Recommendation 2-1. The Agency agreed to develop a
         strategy as recommended by the OIG in the context of EPA’s available
         approaches, authorities, and resources. EPA also noted that the level of radon in
         outdoor air averages about 0.4 pCi/L. The Agency said that radon mitigation
         methods currently available can significantly reduce the public’s exposure to
         radon from high levels to appreciably lower levels, well below EPA’s
         recommended action level of 4 pCi/L in many cases. However, the Agency said it
         cannot typically or reliably achieve a level so low as 0.4 pCi/L in a given
         dwelling, and certainly not in all dwellings. EPA stated that it lacks
         technologically or economically feasible ways to meet the statutory goal.
         However, the Agency acknowledged that greater progress to reduce public-health
         risk from radon is needed and possible. The Agency also stated that before EPA
         can begin strategizing about how the regulatory authority offered by Section 310
         might be utilized to meet the statutory goal, EPA must address the physical and
         technological limitations to achieving the national goal. We accept that the
         Agency’s voluntary program has contributed to slowing the rate of growth in
         exposure, but each year EPA gets further away from – not closer to – its goal of
         protecting the public from indoor radon levels above EPA’s action level of 4.0
         pCi/L. EPA’s position that the goal is unachievable, coupled with results showing
         an expanding radon problem, calls for more than continuing the same strategy.
         We believe that EPA needs to consider using all the authorities the statute grants
         and describe how it will achieve the long-term goal of the statute. The
         recommendation will remain open until the Agency action plan is completed.

         The Agency disagreed with Recommendation 2-2. While EPA agrees that the
         problem of radon exposure gets worse each year, it did not agree to notify
         Congress that the goal set by the statute is unachievable. Since the Agency
         believes that the goal is unachievable, it should report this to Congress along with
         the limitations that preclude the Agency from achieving better results. As stated
         in the Agency’s response, radon mitigation methods currently available can
         significantly reduce the public’s radon exposure from high levels to appreciably
         lower levels, well below EPA’s action level of 4.0 pCi/L in many cases. EPA
         also said that it plans to conduct a strategic review of its radon program to include

                                          18

                                                                          08-P-0174 



the rationale and strategy for achieving any alternative to the long-term goal of
the IRAA. In our view EPA needs to seek Congress’ approval of any alternate
long-term goal. The Agency’s response was not responsive to the
recommendation. We consider this issue open and unresolved.

The Agency agreed with Recommendation 2-3. The Agency said that tracking
radon risk reduction in relation to total homes at risk is another useful way to
measure progress. The recommendation will remain open until the Agency action
plan is completed.

The Agency agreed with Recommendation 2-4. The Office of Air and Radiation
(OAR) committed to pursue this change in annual reporting with the Office of the
Chief Financial Officer and OMB and, if approved, to revise how the Agency
reports the Indoor Radon Program results in its Annual Performance and
Accountability Report. If the proposed performance measure is not approved, in
our opinion there are other reports where the measure could be published, such as
prominently displaying this on the Agency’s Indoor Radon Website. The
recommendation will remain open until the Agency action plan is completed.

The Agency’s complete written response is in Appendix E. Our evaluation of
those comments is in Appendix F.




                                 19

                                                                                                                                         08-P-0174



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1        Action Official           Date      Amount      Amount

    2-1       17    Develop a strategy for achieving the long-term goal       O            Principal Deputy
                    of the IRAA by considering using the authorities                    Assistant Administrator
                    authorized by Congress under Section 310 of that                     for Air and Radiation
                    Act, or explain its alternative strategy.

    2-2       18    Identify limitations in the authorities authorized by     U            Principal Deputy
                    Congress, as well as other limitations that would                   Assistant Administrator
                    preclude achieving the long-term IRAA goal, and                      for Air and Radiation
                    report these limitations to Congress as appropriate.

    2-3       18    Revise the Agency’s performance measuring data            O            Principal Deputy
                    to include metrics that will better measure the                     Assistant Administrator
                    magnitude of the potential radon problem in                          for Air and Radiation
                    relation to the number of homes at risk.

    2-4       18    Revise how the Agency reports the Indoor Radon            O            Principal Deputy
                    Program results in EPA’s Annual Performance and                     Assistant Administrator
                    Accountability Report.                                               for Air and Radiation




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                  20

                                                                                          08-P-0174


                                                                                      Appendix A

                         EPA’s Map of Radon Zones

The purpose of this map is to assist national, State, and local organizations in targeting their
resources and implementing radon-resistant building codes. This map is not intended to be used
to assess risk in any given area, nor is it to be used to determine if a home in a given zone should
be tested for radon. Homes with elevated levels of radon have been found in all three zones.
Important points to note:

   •	   All homes should test for radon, regardless of geographic location or zone designation.

   •	   There are many thousands of individual homes with elevated radon levels in Zones 2
        and 3. In addition to Zone 1, elevated levels can be found in Zone 2 and 3 counties.

   •	   All users of the map should carefully review the map documentation for information on
        within-county variations in radon potential and supplement the map with locally available
        information before making any decisions.

   •	   The map is not to be used in lieu of radon testing during real estate transactions.

The map was developed using five factors to determine radon potential: indoor radon
measurements, geology, aerial radioactivity, soil permeability, and foundation type. Radon-
potential assessment is based on geologic provinces.

Sections 307 and 309 of the IRAA of 1988 directed EPA to list and identify areas of the United
States with the potential for elevated indoor radon levels. EPA's Map of Radon Zones assigns
each of the 3,141 counties in the United States to one of three zones based on radon potential:

     Zone 1 counties have a predicted average indoor radon screening level          Highest
     greater than 4 pCi/L (red zones)                                               Potential
     Zone 2 counties have a predicted average indoor radon screening level          Moderate
     between 2 and 4 pCi/L (orange zones)                                           Potential
     Zone 3 counties have a predicted average indoor radon screening level          Low Potential
     less than 2 pCi/L (yellow zones)




                                                 21

                            08-P-0174 





Source: EPA Website




                      22

                                                                                                           08-P-0174


                                                                                                   Appendix B

                        EPA Radon Program Goals and
                       Progress Toward Achieving Goals

                  EPA Goal -               Estimated             Estimated Number         Projected Number of
               Additional Homes         Additional Homes        of Lives Saved from        Lives Saved from
                  with Radon              with Radon             Additional Homes          Additional Homes
                Mitigations and            Reducing                 with Radon-               with Radon-
     Year      New Home RRNCs              Features2            Reducing Features3         Reducing Features
     2000               --- 1                 153,598                     369                        ---
                              1
     2001               ---                     97,205                    395                        ---
                              1
     2002               ---                   126,801                     430                        ---
     2003             149,000                 145,620                     471                        ---
     2004             162,000                 143,182                     519                        ---
     2005             173,000                 193,996                     577                        ---
     2006             180,000                     ---                      ---                       645
     2007             190,000                     ---                      ---                       715
     2008             225,000                     ---                      ---                       795
     2009             265,000                     ---                      ---                       890
     2010             280,000                     ---                      ---                       995
     2011             330,000                     ---                      ---                     1,110
     2012             380,000                     ---                      ---                     1,250
1	
     EPA did not include estimated goal information for 1997 to 2002 in its report to the Office of Management and
     Budget nor in its Fiscal Year 2006 Performance and Accountability Report.
2	
     EPA estimated additional homes with radon reducing features by (1) collecting data annually on the number of
     new homes built with radon-resistant features based on annual surveys of homebuilding practices conducted by
     the National Association of Home Builders Research Center, and (2) collecting data annually on the number of
     existing homes mitigated for elevated radon levels based on radon mitigation fan sales data obtained through
     voluntary reporting by the fan manufacturers.
3	
     EPA’s Indoor Radon Team’s corrected figures to EPA’s Fiscal Year 2006 Performance and Accountability Report.


Source: OIG-developed table from data provided in the Measure Implementation Plan that EPA submitted to the
Office of Management and Budget for the Program Assessment Rating Tool review (annual goals starting with 2003)
and estimated actual information provided by the EPA’s Indoor Radon Team.




                                                         23

                                                                                     08-P-0174


                                                                                 Appendix C

                 Details on Scope and Methodology

Our evaluation focused on the Indoor Environments Division within EPA’s Office of Air and
Radiation, Office of Radiation and Indoor Air, located in Washington, DC. In addition, we
interviewed managers and staff from EPA Regions 2 (New York), 4 (Atlanta), 7 (Kansas City),
and 9 (San Francisco) regarding various issues throughout the review. These regions and their
staff were recommended by EPA’s Indoor Radon Team. We also interviewed representatives of
the following non-government stakeholder groups: the National Association of Home Builders,
the National Association of Realtors, the American Society of Home Inspectors, the National
Association of Certified Home Inspectors, and the American Association of Radon Scientists and
Technologists. We also reviewed materials provided by the American Radon Policy Coalition.

To determine how EPA measures indoor radon program results and whether changes at the
federal level could improve program effectiveness, we reviewed documents and studies related
to indoor radon. These included:

   •	 The National Academy of Sciences’ 1999 report, Biological Effects of Ionizing Radiation
      VI Report: The Health Effects of Exposure to Indoor Radon.
   •	 EPA public information and consumer pamphlets regarding indoor radon, including
      EPA’s use of the U.S. Geological Survey’s radon-potential map.
   •	 Relevant EPA and U.S. Surgeon General Websites and publications, including television,
      radio, and print media public service announcements.
   •	 EPA’s National Residential Radon Survey: Summary Report.
   •	 Results of an Office of Management and Budget Program Assessment Rating Tool on
      EPA’s Indoor Air Program.
   •	 EPA’s Annual Performance and Accountability Report(s).
   •	 EPA’s congressional justification(s).
   •	 Summary reports containing performance data used by the Agency to measure progress
      toward its Indoor Radon Program goals.

We also examined EPA’s State Indoor Radon Grant Program Website, the SIRG Results
Measures Template, the SIRG State Measures Hierarchy, and the State Measures Template
Checklist.

To identify potential changes and improvements to the Indoor Radon Program at the federal level
and challenges to implementing potential program changes, we discussed these issues with the
aforementioned EPA and key non-governmental stakeholder groups.




                                              24

                                                                                       08-P-0174 



Review of Management (Internal) Controls

Generally accepted government auditing standards require that auditors obtain an understanding
of internal controls significant to the audit objectives and consider whether specific internal
control procedures have been properly designed and placed in operation. We examined
management and internal controls as they related to our objectives. We reviewed the laws that
impact indoor radon and EPA’s authority related to indoor radon with assistance from the OIG
Office of Counsel. We focused on the responsibilities and authorities that EPA has to protect
human health from exposure to indoor radon, including the extent to which EPA has statutory
authority to develop a regulatory-based program. We reviewed the policies and procedures,
performance measures, and reporting requirements that EPA has established to carry out its
voluntary indoor radon program. We reviewed results of an Office of Management and Budget
Program Assessment Rating Tool for the Indoor Air Program. We also reviewed analytical,
documentary, and testimonial evidence from EPA’s Indoor Environments Division and EPA
Regions 2, 4, 7, and 9. Chapter 2 identifies findings and recommendations where EPA can
improve its management of the Indoor Radon Program.

Limitations

We did not verify the accuracy of EPA data, including EPA performance data. EPA collects two
sets of performance data annually, both of which depend on voluntary reporting. First, EPA
collects data on the number of new homes built with radon-resistant features. This data is based
on a voluntary survey of homebuilding practices conducted by the National Association of Home
Builders Research Center. In 2005, this survey only achieved a 4.5-percent response rate.
Second, EPA collects data on the number of existing homes mitigated for elevated radon levels.
This data is based on radon mitigation fan sales data obtained through voluntary reporting by fan
manufacturers. Radon mitigation fans have an estimated life of 10 years. When estimating the
number of new radon mitigations annually in existing homes, the data from fan manufacturers is
adjusted based on the assumption that previously-installed radon mitigation systems will have
their fans replaced once every 10 years. Since these were voluntary measures, we could not
independently verify EPA’s calculation of the number of new homes built with radon-resistant
features, number of existing homes mitigated for elevated radon levels, and estimated future
premature cancer deaths prevented.

We also did not perform a detailed analysis of the accuracy of the assumptions EPA used to
develop these estimates. We did not review the accuracy of indoor radon tests or mitigation
systems, or how well RRNC features are installed. We interviewed 4 of the 10 regions and did
not interview State or local officials. We did not interview representatives of other federal
agencies that are involved in the housing market or solicit input from them.

Prior Reports

Neither the EPA OIG nor the Government Accountability Office (GAO) has issued any recent
reports that addressed EPA actions related to indoor radon. The EPA OIG issued a 1997 report,
Risk Reduction Through Voluntary Programs (Report No. 7100130, April 21, 1997) that
discussed management practices that worked well and areas where improvements were needed in

                                               25

                                                                                    08-P-0174 



voluntary programs, including indoor radon. GAO’s most recent report that addressed indoor
radon was issued in 1992. We reviewed the following GAO reports:

   •	 GAO/RCED-88-103 - April 6, 1988, Indoor Radon: Limited Federal Response to Reduce
      Contamination in Housing
   •	 GAO/T-RCED-91-48 - May 1991, Radon Testing in Federal Buildings Needs
      Improvement and HUD’s [Department of Housing and Urban Development’s]Radon
      Policy Needs Strengthening
   •	 GAO/RCED-92-8 - October 1991 - Indoor Air Pollution Federal Efforts Are Not 

      Effectively Addressing a Growing Problem

   •	 GAO/RCED-93-20 - December 1992 - Actions to Promote Radon Testing




                                             26

                                                                                                        08-P-0174


                                                                                                    Appendix D

                       Summary of Homes at Risk and with
                          Radon Reduction Features

Table D-1: Total Homes Built Compared to Total Number of Homes Built With RRNC
(Single Family Detached)
               Total New Housing Starts        Total New Homes Built            Percent of Total New Homes
    Year                in U.S.                  with RRNC in U.S.                   Built with RRNC
    2001               1,159,000                          65,205                            5.6 %
    2002               1,239,000                          87,001                            7.0 %
    2003               1,311,000                        100,620                             7.7 %
           a
    2004               1,392,000                         85,182                             6.1 %
    2005               1,626,000                        130,996                             8.1 %
    Total              6,727,000                        469,004                             7.0 %
a
     In 2004, EPA began to exclude “Rough-in for Sub-Slab Ventilation” from qualifying as a radon-reducing system.
    This explains the drop in RRNC between 2003 and 2004. For Rough-in for Sub-Slab Ventilation only the sub-slab
    pipe is installed and the vent pipe is stubbed above the slab. This is not the recommended method. It is not a
    functioning system until vented to the outside.

Source: OIG analysis of National Association of Home Builders data for total new housing starts and estimated total
homes built with RRNC information provided by EPA’s Indoor Radon Team.




Table D-2: Homes Built in High Radon-Potential Zone 1 Compared to Number of Homes Built
With RRNC in Zone 1 (Single Family Detached)

               New Housing Starts in
               High Radon-Potential           Total New Homes Built             Percent of Total New Homes
    Year           Zone 1 Only                with RRNC In Zone 1 a              Built with RRNC in Zone 1
    2001                255,000                         39,123                             15.3%
    2002                266,000                         52,201                             19.6%
    2003                313,000                         60,372                             19.3%
           a
    2004                323,000                         51,109                             15.8%
    2005                370,000                         78,597                             21.2%
    Total             1,527,000                        281,402                             18.4%
a
    EPA estimates that 60 percent of all homes built with RRNC are in Zone 1.

Source: OIG analysis of National Association of Home Builders data for new starts in Zone 1 and estimated total
homes built with RRNC information provided by EPA’s Indoor Radon Team.




                                                         27
                                                                                                                      08-P-0174


Figure D-1: Total New Homes Built In Zone 1 Areas Compared to Number of
New Homes Built with RRNC Features In Zone 1 Areas, 2001 to 2005




              Thousands
                       450
                       400
                       350
                       300
  Total New Homes in   250
         Zone 1
                       200                                     Total New Homes Built in Zone 1
                       150                                     Total New Homes Built in Zone 1 with RRNC

                       100
                       50
                          0
                              2001 2002 2003 2004 2005
                                        Year




 a	
      New homes built with RRNC in Zone 1 is based on EPA’s estimate that 60 percent of all

      homes built with RRNC are in Zone 1. 

 Source: OIG analysis of National Association of Home Builders data for total new housing starts
 in Zone 1, and estimated total homes built with RRNC provided by EPA’s Indoor Radon Team.


Table D-3: Total Radon Reducing Features Nationwide, 2000 to 2005

                                Estimated        Percent
                              Total Number       of Total
                              of Homes with      Homes              Net New                                Total New     Cumulative
                                  Radon-           with            Mitigations       Cumulative             Homes        New Homes
           Number of             Reducing        Radon-             Annually         Mitigations           Built with     Built with
            Homes                Features       Reducing            (Existing         (Existing             RRNC In       RRNC In
                                                          1                                                                      2
           Nationwide          Nationwide       Features             Homes)            Homes)                 U.S.          U.S.
Year           (a)                  (b)             (c)                (d)               (e)                   (f)           (g)
2000       70.0 million         1,345,374          1.9%              25,100             397,100             128,498         948,274
2001       70.8 million         1,442,579          2.0%              32,000             429,100             65,205        1,013,479
2002       72.4 million         1,569,380          2.2%              39,800             468,900             87,001        1,100,480
2003       73.6 million         1,715,000          2.3%              45,000             513,900             100,620       1,201,100
2004       75.1 million         1,858,182          2.5%              58.000             571,900             85,182        1,286,282
2005       76.1 million         2,052,178          2.8%              63,000             634,900             130,996       1,417,278
      1.   Percent of Total Homes with Radon-Reducing Features = column a / column b.
      2.   Cumulative New Homes Built with RRNC in U.S. = column b – column e.
Source: OIG analysis of estimated total homes built with RRNC and number of existing homes with added radon-reducing
features information provided by EPA’s Indoor Radon Team. The number of single family detached structures (column a
above) is from U.S. Census Bureau data.

                                                              28
                                                                                       08-P-0174


                                                                                   Appendix E

                  Agency Response to Draft Report

                                         May 28, 2008



MEMORANDUM

SUBJECT:      Comments on the Draft Evaluation Report: More Action Needed to
              Protect Public from Indoor Radon Risks

FROM:         Robert J. Meyers
              Principal Deputy Assistant Administrator
              Office of Air and Radiation

TO:           Wade T. Najjum
              Assistant Inspector General for Program Evaluation
              Office of Inspector General

        The EPA Office of Air and Radiation appreciates the opportunity to review and comment
on the OIG’s draft report “More Action Needed to Protect Public from Indoor Radon Risks”
(Assignment No. 2007-000308). We are grateful to have OIG’s input on the important public
health challenge of reducing indoor radon exposure.

         While we acknowledge that the public health risk of indoor radon exposure remains high,
EPA believes our accomplishments to date are significant and should be noted. Due to EPA’s
work with States and industry, more than two million measured or potentially high-risk U.S.
homes now have radon-reducing features, with the result that an estimated 6,000 lung cancer
deaths have been prevented to date. We have helped establish a revitalized State and industry
infrastructure (a key to organizing risk reduction in a voluntary/market-driven program). This
includes development of a private proficiency program for measurement and mitigation, the
establishment of a system of State programs (through State Indoor Radon Grant (SIRG) and the
institution of training capability (through the Regional Radon Training Centers) to support the
radon community at large.

        EPA has also helped broker broad-scale scientific consensus on radon risk, garnered
millions of dollars of donated media time for the Agency’s radon media campaigns, and
generated high levels of awareness among the public, identifying radon as a health hazard. More
recently, EPA’s partners have responded to EPA’s call to reinvigorate action on the radon issue.
This effort is already yielding an important resurgence in interest and action, including a
substantial increase in reported State and local public outreach events occurring during National
Radon Action Month.


                                               29

                                                                                         08-P-0174


       Below are OAR’s responses to OIG’s specific recommendations.

2-1    Develop a strategy for achieving the long-term goal of the IRAA by considering
       using the authorities authorized by Congress under Section 310 of that Act, or
       explain its alternative strategy.

       Response: The goal of IRAA, stated in Section 301, is to “reduce radon levels in all
       buildings to that of ambient outdoor air.” The level of radon in outdoor air averages
       about 0.4 pCi/L. Radon mitigation methods currently available can significantly reduce
       the public’s exposure to radon from high levels to appreciably lower levels, well below
       our recommended action level of 4 pCi/L in many cases. They cannot typically or
       reliably achieve a level so low as 0.4 pCi/L in a given dwelling, and certainly not in all
       dwellings. Lacking technologically or economically feasible ways to meet the statutory
       goal, the regulatory authority offered by Section 310 to meet the provisions of IRAA will
       not enable its achievement. Accordingly, as discussed in further detail below, the
       principal limitations to meeting the statutory goal are physical and technological. Thus,
       before EPA can begin strategizing about how the regulatory authority offered by Section
       310 might be utilized to meet the statutory goal, EPA must address the physical and
       technological limitations to achieving the national goal.

       Despite this, OAR agrees with the OIG that greater progress is needed and possible to
       reduce public-health risk from radon. This conviction underlies our recent actions to
       reinvigorate the program through clear Federal leadership and more aggressive and
       focused public outreach, involving stronger organization and collaboration with States
       and the radon industry. In response to this recommendation, OAR agrees to develop a
       strategy as recommended in the context of our available approaches, authorities, and
       resources.

        See Appendix F
        Note 1 for OIG Response


 2-2   Identify limitations in the authorities authorized by Congress, as well as other
       limitations that would preclude achieving the long-term IRAA goal, and report
       these limitations to Congress as appropriate.

       Response: As stated in section 2-1, OAR believes the long-term IRAA goal is not
       achievable. The principal limitations to meeting the national goal are physical and
       technological, not statutory. Radon is a naturally occurring radioactive element. Its
       levels indoors can rise or fall based on such variables as soil-gas availability, relative
       pressure, temperature, ventilation, and humidity. Indoor concentrations can also vary
       according to the design and construction of an individual dwelling, as well as the living
       habits of its occupants. We do not believe such geological and social limitations are
       subject to remedy through legislative enactment. OAR will consider authorities and
       limitations with respect to accelerating risk reduction in the context of the strategic
       review we will conduct in response to Recommendation 2-1. This review will also


                                                30

                                                                                         08-P-0174


       include the rationale and strategy for achieving any alternative to the long-term goal of
       IRAA.

         See Appendix F
         Note 2 for OIG Response


2-3    Revise the Agency’s performance measuring data to include metrics that will better
       measure the magnitude of the potential radon problem in relation to the number of
       homes at risk.

       Response: We agree with OIG that tracking radon risk reduction in relation to total
       homes at risk is another useful way to measure progress. We will therefore create an
       additional measure calculating total active mitigations, combined with new homes built
       with RRNC in Zone 1 areas, as a portion of all homes at risk.

         See Appendix F
         Note 3 for OIG Response


2-4    Revise how the Agency reports the Indoor Radon Program results in EPA’s Annual
       Performance and Accountability Report.

       Response: EPA is obliged to report its results under requirements laid down by OMB in
       its budgetary formulation and through the PART process. For this reason we will
       continue to report homes mitigated and built RRNC, the results on which we have direct
       influence, as OMB requires. In addition, we will propose to the Office of the Chief
       Financial Officer and OMB the inclusion of the new measure described in
       Recommendation 2-3 in future reports.

         See Appendix F
         Note 4 for OIG Response


       Thank you again for the opportunity to comment on the draft evaluation report. If you
have questions, please contact Bill Long, Director for the Center of Radon and Air Toxics, at
(202) 343-9733.

Attachments




                                                31

                                                                                          08-P-0174 





                                            Attachment

       Additional Comments on OIG Evaluation Report: More Action Needed to Protect 

                             Public from Indoor Radon Risks 


                        Assignment No. 2007-0000398, February 13, 2008


General Comments

   -     OAR believes that the IRAA long-term goal is not achievable and this belief highly
         influences our response to two of the four OIG recommendations.

   -     EPA believes Federal-level voluntary methods are appropriate to this program and that,
         given the many problems of design and implementation that would accompany a
         structure of national mandates, Federal regulation is unlikely to provide a workable
         solution to a unique, ubiquitous, and exceptionally complex public-health problem.

   -     OAR believes that, when imposed at the appropriate level of government, regulatory
         approaches to radon risk reduction may be warranted and often effective. An example is
         the enactment of building codes which require radon-resistant techniques in new-home
         construction. Historically, the authority to impose such restrictions was been exercised at
         the state and local level.

 See Appendix F
 Note 5 for OIG Response


Specific Comments

“At a glance” section 

“EPA’s ability to achieve results with a voluntary program is limited.” 


OAR agrees, since the nature of the radon problem defies even the best efforts of Government to 

meet the statutory goal. OAR believes EPA’s ability to achieve results within a Federal-level 

regulatory regime is also limited. While we have not yet solved the problem of radon exposure 

using voluntary approaches, we do not believe these approaches should be abandoned. 


 See Appendix F
 Note 6 for OIG Response


Page 3
“Instead, 4.0 pCi/l of air is the point at which the cost to the homeowner for fixing the problem
(taking action) is warranted by the risk from the radon.”


                                                 32
                                                                                           08-P-0174


The action level was a technological/cost decision, not a health risk/cost based decision.
Footnote number 8 on page 9 provides a good, accurate explanation.

 See Appendix F
 Note 7 for OIG Response


Page 6
The “Noteworthy Achievements” section

OAR believes OIG should acknowledge EPA’s substantial achievements in mitigation and
Radon-Resistant New Construction in this section. Viewed apart from the statutory goal, these
results are noteworthy given the ubiquity of the pollutant and the inherent difficulty of the task.
We believe the protection of more than 2 million potentially high-risk U.S. homes with radon
reducing features is significant, as is the avoidance of approximately 6,000 cumulative lung
cancer deaths. Other notable achievements include the establishment of an industry
infrastructure (a key to organizing risk reduction in a voluntary/market driven program). This
includes development of a private proficiency program for measurement and mitigation, the
establishment of a system of state programs (through SIRG) and the institution of training
capability (through the Regional Radon Training Centers) to support the radon community at
large.

        EPA has also helped broker broad-scale scientific consensus on radon risk, garnered
millions of dollars of donated media time for the Agency’s radon media campaigns, and
generated generally high levels of awareness among the public identifying radon as a health
hazard. More recently, EPA’s partners have responded to EPA’s call to reinvigorate action on
the radon issue. This effort is already yielding important results, including a substantial increase
in reported state and local public-outreach events occurring during National Radon Action
Month.

 See Appendix F
 Note 8 for OIG Response


Page 9
“Further, EPA has not exercised all the authorities granted to it by the 1988 IRAA. Due to
insufficient progress, each year EPA falls further behind in achieving the IRAA long-term goal
that indoor radon levels be no higher than outdoor levels.”

We believe the report makes an incorrect inference that EPA’s limited historical reliance on
Section 310 of IRAA is causally linked to a growing action gap. Also, it assumes achieving the
long-term IRAA goal is technically feasible.

 See Appendix F
 Note 9 for OIG Response




                                                 33

                                                                                          08-P-0174


Page 9
“. . . below the 4.0 pCi/lL level, which is EPA’s assessment that the cost to fix the problem is not
warranted by the risk from the radon.”

As stated above, this is not how the 4.0 pCi/lL was set. Footnote number 8 on page 9 provides a
good, accurate explanation.

 See Appendix F
 Note 10 for OIG Response




Page 10
“A 1992 review by EPA’s Office of Policy, Planning, and Evaluation concluded that the radon
program had made some progress in increasing radon awareness and testing. However, that
office also found that public information alone would not be sufficient to achieve significant
long-term risk reduction. Stronger actions, such as requiring radon testing in real estate
transactions and building radon-resistant new homes, were encouraged and seen as cost
effective”

OAR has reviewed the findings of this 16 year-old report. The study does recommend
consideration of strategies beyond public information to accelerate radon risk-reduction, some of
which EPA has adopted. While it does comment on the use of alternative regulatory approaches,
specifically in the areas of code amendment and real estate transfers, it places these
responsibilities within the province of state and local government.

 See Appendix F
 Note 11 for OIG Response



Page 11 

“Adoption of Radon Codes and Regulations Inconsistent” 


The report asserts that State and local adoption of codes has been "inconsistent". We believe this 

characterization incorrectly implies a "one best way" approach to adoption of building codes. 

The reality is that all States have different processes, and many do not have any statewide 

building codes. 


 See Appendix F
 Note 12 for OIG Response




                                                 34

                                                                                         08-P-0174 



Page 16
“. Congress authorized the EPA Administrator in Section 310 “to issue such regulations as may
be necessary to carry out” the provisions of the IRAA. To date, 19 years after the IRAA was
enacted, EPA has not proposed any indoor radon regulations.”

In 1995 EPA cited Section 310 authority to promulgate a ‘user-fee rule’ as required by Sec.
305(e) of IRAA in order to defray the operating costs of EPA’s then National Radon Proficiency
Program (NRPP). That program, initially authorized by IRAA for three years, is now managed
by private non-profit organizations, and the fee rule is no longer in effect. In addition, EPA used
authority under IRAA to promulgate two Federal grant programs (the State Indoor Radon Grants
and Performance Partnership Grants programs)

 See Appendix F
 Note 13 for OIG Response




                                                35

                                                                                         08-P-0174



                                                                                         Appendix F
                OIG Evaluation of Agency Response
We acknowledge that addressing indoor radon is not an easy task. Radon is an odorless,
tasteless, and invisible gas. In our draft report, we acknowledged that there are numerous
impediments impacting EPA’s progress, including inconsistencies in radon-related requirements
among State and local governments, and a lack of incentives for many key stakeholders. It is
clear that the Agency has made some progress; however, after nearly two decades of effort by
EPA, potential exposure to indoor radon continues to grow each year. EPA did not dispute the
data in this report, and has agreed to develop a strategy to further reduce public-health risk from
radon. EPA agreed that it has the authority to issue regulations for this program; however, it said
that before EPA can begin strategizing about how the regulatory authority offered by Section 310
might be utilized to meet the statutory goal, EPA must address the physical and technological
limitations to achieving the national goal. The Agency believes that the long-term goal of the
IRAA is not attainable, but acknowledges that greater progress toward the statutory goal is
needed and possible.

We continue to believe that more action is needed than “reinvigorating” the current program.
EPA should reassess its radon program strategy and structure, and inform Congress what level is
attainable considering technology and other factors, and what the Agency plans to do to achieve
this level.

Note 1-        EPA acknowledges that the health risks from radon exposure remain high and has
               agreed to develop a strategy as recommended by the OIG in the context of its
               available approaches, authorities, and resources. We agree with EPA’s planned
               actions to develop a strategy.

Note 2-        If the Agency believes that the long-term goal of the IRAA is not achievable, it
               should report this to Congress as a program limitation. The Agency should also
               inform Congress as to what level is attainable considering technology and other
               factors, as well as what the Agency plans to do to achieve this level. We
               acknowledge that there may be technical and policy limitations to attaining levels
               of 0.4 pCi/L for indoor air at an affordable cost. We note that in 1992 EPA
               determined that a level of 2.0 pCi/L for indoor air was achievable 70 percent of
               the time. EPA also said that it plans to conduct a strategic review of its radon
               program to include the rationale and strategy for achieving any alternative to the
               long-term goal of IRAA. In our view EPA needs to seek Congress’ approval of
               any alternate long-term goals. We did not make changes to Recommendation 2-2.

Note 3-        We agree with the Agency’s planned actions to address Recommendation 2-3.

Note 4-        We agree with the Agency’s commitment to propose the measure to OMB. If
               OMB does not approve the measure for inclusion in the Agency’s Annual
               Performance and Accountability Report, the Agency should consider other places



                                                36

                                                                                     08-P-0174


           where the measure could be published, such as prominently displaying this on the
           Agency’s Indoor Radon Website.

Note 5-	   The OIG identified EPA’s concerns with whether the IRAA long-term goal is
           achievable. For example, in Chapter 2 our draft report stated “According to EPA,
           there may be technical and policy limitations on the ability to attain levels of 0.4
           pCi/L for indoor air (the average level for outdoor air) at an affordable cost.”
           After more than 19 years, we believe EPA needs to disclose to Congress and the
           public that its Radon program will never achieve the goals Congress set for it.
           Not reporting EPA’s lack of capability and progress impedes Congress from
           making informed decisions about Radon and the nation’s health.

Note 6-    We do not state in the report that the Agency’s voluntary approach to the radon
           program should be abandoned. We suggested developing alternatives for
           reaching the goal of the IRAA. In the 19 years since Congress passed the IRAA
           the number of homeowners potentially exposed to excessive radon has increased
           each year. We recommended EPA reassess its radon program strategy and
           structure for meeting the goal of the Indoor Radon Abatement Act. If the IRAA
           long-term goal is the problem, then the Agency should inform Congress as to
           what level is attainable considering technology and other factors, and what the
           Agency plans to do to achieve this level.

Note 7-    We revised the report based on this comment. We deleted “the point at which the
           cost to the homeowner for fixing the problem (taking action) is warranted by the
           risk” and added “was a decision based on EPA’s assessment of technology and
           cost”.

Note 8-	   We did not make changes to the Noteworthy Achievements section. The report
           already contained information in Chapters 1 and 2 and in the Appendices related
           to the estimated homes with radon reducing features and the number of lives
           saved. We believe that the information in the Noteworthy Achievements section
           is descriptive of the Agency’s accomplishments.

Note 9-	   The radon problem gets worse each year. We believe that the Agency should
           reassess how to achieve desired results. As discussed in Chapter 2, multiple
           factors have contributed to limit the progress made in the voluntary radon
           program. There are disincentives for real estate agents, home inspectors, and
           home sellers to conduct radon tests during real estate transactions. We also stated
           in Chapter 2 that given the Agency’s limited progress from its voluntary approach
           for the past 19 years, it is time for the Agency to consider other means to achieve
           the 1988 IRAA goal. As discussed in Note 2 above, if the Agency believes that
           the long-term goal of the IRAA is not attainable, it should report this to Congress
           as a limitation of the program. If this is the case, then the Agency should also
           inform Congress as to what level is attainable considering technology and other
           factors, and what the Agency plans to do to achieve this level.



                                            37

                                                                                      08-P-0174 



Note 10-	   See our response in Note 7 above.

Note 11-	   We deleted the information related to the 1992 report from the Final Report.

Note 12-	   We do not believe there is a “one best way” to adopt radon codes; however, we do
            point out that the current way is not producing the desired results. In this section
            we point out the inconsistencies of the participants in the radon program and how
            those inconsistencies limit EPA’s ability to achieve greater results. As noted in
            Chapter 2, some States and localities have not adopted radon building codes, and
            in some areas where radon tests are performed the disclosure of results is
            voluntary.

Note 13-	   No change necessary. This information is not pertinent to the issues addressed in
            Chapter 2 of the report.




                                             38

                                                                               08-P-0174 





                                                                            Appendix G


                                      Distribution

Office of the Administrator
Principal Deputy Assistant Administrator for Air and Radiation
Deputy Assistant Administrator for Air and Radiation
Director, Office of Radiation and Indoor Air
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Audit Follow-up Coordinator, Office of Air and Radiation
Office of General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Deputy Inspector General




                                             39

